OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/PAKISTAN’S
MANAGEMENT OF PREAWARD
ASSESSMENTS
AUDIT REPORT NO. G-391-11-004-P
MAY 6, 2011




ISLAMABAD, PAKISTAN
Office of Inspector General


May 6, 2011

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Andrew Sisson

FROM:                Office of Inspector General/Pakistan Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Pakistan’s Management of Preaward Assessments
                     (Report No. G-391-11-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

The report contains four recommendations to help the mission improve various aspects of the
program. On the basis of the information provided by the mission in response to the draft report,
we determined that final action has been taken on three recommendations, and a management
decision has been made on the other recommendation. A determination of final action will be
made by the Audit Performance and Compliance Division when the mission completes planned
corrective actions on the remaining recommendation.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
American Embassy
Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................. 1


Audit Findings........................................................................................................... 3

          Mission Did Not Prioritize or Follow Up on Significant Vulnerabilities ............ 3

          Mission Did Not Ensure Assessments Were Properly Documented ............... 5


Evaluation of Management Comments................................................................... 7


Appendix I – Scope and Methodology .................................................................... 8


Appendix II – Management Comments ................................................................. 10


Appendix III – USAID/Pakistan’s Awards to Governmental
and Local Organizations in Pakistan for Fiscal Years 2009 and 2010 ............... 12


Appendix IV – Fiscal Year 2010 Preaward Assessments Selected for Audit .... 15
SUMMARY OF RESULTS
The Enhanced Partnership with Pakistan Act of 2009 authorized $7.5 billion in U.S. Government
assistance over 5 years to promote an enhanced strategic partnership with Pakistan and its
people. In authorizing these funds, the act encourages the U.S. President, as appropriate, to
utilize Pakistani firms and nongovernmental organizations and to work with local leaders to build
local capacity. In response, the Administration reported to the U.S. Congress in its Civilian
Assistance Strategy for Pakistan Report * that one element of the strategy is to work more
closely with Pakistani Government institutions, the private sector, and civil society in designing
and implementing programs. The intent of this strategy is to make U.S. Government programs
more sustainable and to foster local capacity.

To facilitate this strategy, USAID/Pakistan estimated that approximately 50 percent of fiscal year
2010 funding, or $750 million, would go through Pakistani federal and provincial agencies and
local organizations (recipients). For fiscal years 2009 and 2010, USAID/Pakistan signed
agreements with various Pakistani recipients, under which it obligated nearly $588 million and
disbursed approximately $448 million. Appendix III provides a complete list of all the
agreements.

With the implementation of the strategy to build Pakistani capacity, concerns have been raised
in the media and within the U.S. Government that providing too much money to Pakistani
recipients too quickly could jeopardize U.S. funds. USAID/Pakistan recognized the challenges
and took proactive steps to address the risks. One key step taken by the mission was to
contract with international and local accounting firms to conduct preaward assessments (also
referred to as preaward surveys) of potential first-time recipients of USAID funds. The intent of
these assessments is to determine whether the recipients can effectively manage and account
for these funds. The accounting firms identify vulnerabilities and recommend actions to address
the vulnerabilities. For fiscal year 2010, USAID/Pakistan expended approximately $657,000 on
the 28 preaward assessments conducted and the resultant reports. Appendix IV provides
details on 8 of 28 assessments selected for testing.

USAID’s Office of Inspector General in Pakistan (OIG/Pakistan) conducted this audit to answer
two questions:

•     Did USAID/Pakistan’s preaward assessment process provide a reasonable basis for
      identifying significant vulnerabilities that could result in the waste or misuse of U.S.
      Government resources?

•     Did USAID/Pakistan ensure that significant vulnerabilities identified in the preaward
      assessments of Government of Pakistan institutions and local organizations were corrected
      in a timely fashion?

The audit found that USAID/Pakistan’s preaward process did provide a reasonable basis for
identifying significant financial management vulnerabilities; however, the audit noted
weaknesses in the mission’s management of the preaward process:



*
    U.S. Department of State, December 14, 2009.


                                                                                                1
•   The mission did not prioritize or follow up on significant vulnerabilities identified in
    assessments (page 3). The eight audited assessments contained more than 250
    weaknesses in the recipients’ ability to manage funds, yet only 55 weaknesses were
    incorporated in agreements as special award conditions. USAID/Pakistan did not ensure
    that recipients corrected significant vulnerabilities before receiving funding, placing U.S.
    Government resources at higher risk of fraud, waste, and abuse.

•   The mission did not ensure that the preaward assessment reports were properly
    documented (page 5).

The report recommends that USAID/Pakistan:

1. Develop and implement a risk-assessment model to use in determining which of the
   weaknesses identified in the preaward assessments should be addressed before or after the
   disbursement of funds.

2. Develop and implement a comprehensive tracking system with benchmarks and time frames
   for measuring progress on resolving weaknesses that are identified in the preaward
   assessment reports.

3. Develop and implement written guidelines to follow when determining whether
   predisbursement recommendations have been adequately addressed (page 5).

4. Develop and implement written procedures for reviewing the preaward assessment reports,
   including guidelines for testing the supporting documentation (page 6).

Detailed findings follow. OIG/Pakistan’s evaluation of management comments begins on page
7. On the basis of an evaluation of the mission’s response to the draft report, we determined
that final action has been taken on three recommendations, and a management decision has
been reached on the remaining recommendation.

The audit scope and methodology are described in Appendix I, and USAID/Pakistan’s
comments are found in their entirety, without attachments, in Appendix II.




                                                                                              2
AUDIT FINDINGS
Mission Did Not Prioritize or Follow Up
on Significant Vulnerabilities
According to USAID’s Automated Directives System (ADS) 303.3.9.2, if, after conducting a
comprehensive review of a potential recipient, USAID is unable to affirm that the recipient has
the capacity to responsibly manage USAID funds, USAID can deny the award or make the
award with “special award conditions.” USAID may consider making this choice only if it
appears likely that the potential recipient can correct its deficiencies within a reasonable amount
of time. These conditions are intended to be for a limited time, not for the life of the award.

To minimize the risk in making awards to Pakistani governmental and local organizations,
USAID/Pakistan contracted with local accounting firms to conduct preaward assessments. The
assessments were to identify weaknesses in the recipients’ financial management operations
and to make corresponding recommendations to resolve the weaknesses. According to the
mission, the results of the assessments were discussed and determinations made as to which
of the recommendations should be included in the award agreement (1) as predisbursement
requirements, or “special award conditions,” or (2) as postdisbursement recommendations.

Of the 28 assessment reports completed during fiscal year 2010, the 8 selected for testing
noted over 250 weaknesses in the potential recipients’ ability to properly manage funds. The
mission included 55 of the reported weaknesses in the recipients’ agreements and stipulated
that the weaknesses should be adequately addressed before or after the initial disbursement of
funds. However, many weaknesses that the mission did not include in the recipients’
agreements concerned the recipients’ payment mechanisms and systems for procurement,
accounting, and overall monitoring and assessment. The mission did not include or otherwise
address the remaining 195 weaknesses because it did not have a comprehensive plan with a
clearly defined methodology for prioritizing and determining which of the 250 weaknesses
should or should not be addressed.

In addition, for two of the eight audited assessments that contained special award conditions,
the mission disbursed $204 million before it obtained sufficient evidence that conditions had
been met and weaknesses resolved. The first recipient was the Government of Pakistan’s
Benazir Income Support Program (BISP), established in 2008 to provide a permanent cash
support mechanism for families in poverty. Under a cash transfer agreement with the
Government of Pakistan, USAID agreed to provide $85 million for BISP. The cash transfer
agreement stipulated that before the disbursement of the $85 million, the government would
provide evidence that BISP had satisfactorily addressed the recommendations (if any) made in
the preaward assessment. The accounting firm that conducted the assessment identified seven
weaknesses that should be corrected before the disbursement of funds:

1. Deficit in mandated number of private sector representatives on the board of directors.
2. Lack of qualified personnel.
3. Lack of approved and implemented policies and procedures for internal audit.
4. Lack of approved and implemented policies and procedures for finance and accounting.



                                                                                                 3
5. Lack of properly documented systems and procedures to verify the receipt of payments to
   intended beneficiaries.
6. Lack of approved and implemented policies and procedures for human resources.
7. Lack of adherence to the stipulated time frame in carrying out funds reconciliation.

As evidence that BISP had addressed the above weaknesses satisfactorily, USAID/Pakistan
primarily relied on a memorandum supplied by the Government of Pakistan that reported the
status of BISP’s efforts to address the significant deficiencies noted. USAID/Pakistan officials
stated that they did not interpret the special award conditions in the agreement to mean that the
recipient had to resolve the weaknesses, but only had to provide evidence that BISP was
working to resolve the deficiencies. USAID/Pakistan officials also noted that the World Bank
was providing technical support to BISP and was working closely with BISP to resolve many of
the reported weaknesses. Accordingly, in January 2010, the mission determined that the
deficiencies had been addressed satisfactorily and in the following month made the $85 million
disbursement. In June 2010, the mission disbursed an additional $75 million to the Government
of Pakistan for future BISP requirements. The mission did perform a more detailed review
before the disbursement of the second tranche in June 2010; nevertheless, the mission’s review
confirmed that the implementation of five of the seven recommendations remained pending.
Since June 2010, the mission has not performed any additional follow-up on the pending
recommendations.

To determine the current status of the reported deficiencies at BISP, the audit team met with
World Bank and Government of Pakistan officials. World Bank officials confirmed that the
seven recommendations had not been resolved before funds were disbursed and many—nearly
a year after the initial disbursement of funds—remained unresolved. World Bank officials cited
as critical issues that remain unresolved (1) the deficit of private sector representatives on the
board of directors, (2) the lack of qualified staff to implement policies and procedures, and (3)
the lack of an independent internal audit function to monitor operations. Government of
Pakistan officials with management responsibilities for BISP also noted that although progress
was being made on the predisbursement recommendations, BISP agreed that they were not
fully resolved before disbursement.

The second recipient was the Government of Pakistan’s program to help families affected by the
ongoing military operations in Pakistan. Under a cash transfer agreement, USAID/Pakistan
agreed to reimburse the Government of Pakistan $44 million for payments made to 140,000
families that were displaced as a result of military operations. Again, the cash transfer
agreement stipulated that before the disbursement of the $44 million the Government of
Pakistan would provide evidence that the government office responsible for helping the
displaced had satisfactorily addressed the recommendations (if any) made in the
USAID/Pakistan assessment. The accounting firm that conducted this assessment identified
two weaknesses that should be corrected before the disbursement of funds:

1. All the implementing partners should sign a contract that clearly specifies the roles and
   responsibilities of all parties.

2. All implementing partners should reconcile the records of internally displaced persons
   (IDPs).

As with BISP, USAID/Pakistan released the $44 million based on the recipient’s assertion that
the predisbursement recommendations had been addressed. USAID/Pakistan did not test or


                                                                                                4
verify the recipient’s response. The audit team met with Government of Pakistan officials to
determine the current status of the two reported deficiencies. The officials stated that—over a
year later—they were unsure whether a signed contract existed among all parties implementing
this project. Also, the overall reconciliation of IDP records remains a work in progress.

With regard to the two incidents discussed above, mission officials stated that given the extreme
pressure to move funds quickly to the recipients, USAID/Pakistan did not perform a detailed
analysis to ensure adequate evidence existed that the predisbursement recommendations had
been implemented before releasing funds. Mission officials reiterated that, based on the
representations made and discussions with the recipients, they believed satisfactory progress
had been made on the reported weaknesses. However, it is our opinion that given the high risk
of providing funds to recipients with significant reported deficiencies, a more conservative
approach should have been taken. In addition to obtaining the memorandum from the
Government of Pakistan before disbursing funds, the mission should have independently
verified the recipients’ responses.

As a result of the weaknesses discussed above, USAID/Pakistan should strengthen its follow-up
to ensure that significant vulnerabilities identified in the preaward assessments are corrected in
a timely fashion. USAID/Pakistan released $204 million before properly ensuring that the
predisbursement conditions were resolved, thereby placing U.S. Government funds at increased
risk of waste or misuse. Strengthening follow-up would decrease this risk and the risk that
USAID-funded projects with these recipients might not achieve their overall objectives.

To resolve these weaknesses, we recommend the following:

    Recommendation 1. We recommend that USAID/Pakistan develop and implement a
    risk-assessment model to use in determining which of the weaknesses identified in the
    preaward assessments should be addressed before or after the disbursement of funds.

    Recommendation 2. We recommend that USAID/Pakistan develop and implement a
    comprehensive tracking system with benchmarks and time frames for measuring the
    progress on resolving weaknesses that are identified in the preaward assessment
    reports.

    Recommendation 3. We recommend that USAID/Pakistan develop and implement
    written guidelines to follow when determining whether predisbursement
    recommendations have been adequately addressed.

Mission Did Not Ensure Assessments
Were Properly Documented
According to USAID’s Automated Directives System (ADS) 202.3.6, USAID must ensure that
work performed by contractors is conducted in accordance with the terms in the contract and
that outputs produced by the contractor are of acceptable quality. The scope of work for the
preaward assessments required accounting firms to properly support, index, foot, and cross-foot
their conclusions with supporting documentation.
For seven of the eight assessment reports tested, the audit noted the following deficiencies.
•   The reports were not indexed to supporting documentation.
•   The reports’ conclusions were not supported by adequate documentation.


                                                                                                5
•   The extent of testing of the recipients’ internal controls was not clearly documented.
•   Evidence of supervisory review of the working papers was not found.
•   Weaknesses noted in the working papers were not included in the reports.
•   Some working papers were erroneous or incomplete.
•   Evidence of field visits was not found.
•   Scope limitations were not disclosed in the reports.

USAID/Pakistan officials stated that, because they relied on the expertise of the accounting
firms, they saw no need to perform a detailed review of the documentation supporting the
preaward assessment reports. The audit confirmed that USAID/Pakistan maintained regular
communication with the accounting firms throughout the assessment process. However, it is
our opinion that given the amount of funding involved and the high risk of exposure, mission
officials should conduct a more thorough review of the documentation supporting the reports’
conclusions and findings.

To ensure that the preaward assessments provide a reasonable basis for detecting financial
management vulnerabilities that could result in waste or misuse of U.S. Government resources,
we make the following recommendation:

    Recommendation 4. We recommend that USAID/Pakistan develop and implement
    written procedures for reviewing the preaward assessment reports, including guidelines
    for testing the supporting documentation.




                                                                                             6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with all recommendations included in the draft report. Having evaluated
the mission’s response and supporting documentation to the draft report, we determined that
final action has been taken on three recommendations, and a management decision has been
reached on the remaining recommendation. The status of each of the four recommendations is
shown below:
•   Final action—Recommendations 1, 2, and 3.
•   Management decision—Recommendation 4.
The mission agreed with Recommendation 4.              USAID/Pakistan’s Office of Financial
Management will develop a plan and procedure for reviewing the preaward assessment reports
and conducting tests of supporting documentation on a random sample of reports. The target
date to develop and implement written procedures is July 1, 2011.
We consider that a management decision has been reached on Recommendation 4. The Audit
Performance and Compliance Division will make a determination of final action on completion of
the planned corrective actions.
The mission’s written comments on the draft report are included in their entirety, without
attachments, as Appendix II to this report.




                                                                                            7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s preaward assessment
process provided a reasonable basis for identifying significant vulnerabilities that could result in
the waste or misuse of U.S. Government resources and to determine whether the significant
vulnerabilities identified in the preaward assessments of Government of Pakistan institutions
and local organizations were corrected in a timely fashion. USAID/Pakistan utilized the services
of international and local accounting firms in Pakistan to perform the preaward assessments.
No previous audits addressed the areas reviewed.

The audit covered preaward assessment reports issued during fiscal year 2010. For fiscal year
2010, 28 preaward assessment reports were completed at a cost to USAID of $614,403. For the
fiscal years ending 2009 and 2010, USAID/Pakistan obligated nearly $588 million and disbursed
approximately $448 million to various Pakistani recipients (Appendix III).

We reviewed applicable laws and regulations, as well as USAID policies and procedures
pertaining to USAID/Pakistan’s program: Automated Directives System Chapters 202, 301, and
303 and supplemental guidance. The audit relied on the following sources of evidence: scopes
of work for preaward assessments; preaward assessment reports; cooperative agreements;
implementation letters; interviews with officials from accounting firms, implementing partners,
the Government of Pakistan, and USAID/Pakistan; working paper files of accounting firms; and
documentation maintained at the mission.             Audit fieldwork was performed at the
USAID/Pakistan mission, the offices of accounting firms completing the assessments, and
implementing partners’ main program offices located in Islamabad from November 8, 2010,
through January 28, 2011. The names of the accounting firms and implementing partners
appear in Appendix IV.

In planning and performing the audit, the audit team assessed relevant controls used by the
mission to manage the preaward assessment process and to ensure that USAID/Pakistan
provided adequate oversight of program activities. These controls included maintaining regular
contact with the accounting firms and reviewing project files.

Methodology
To answer the audit objectives, the audit team interviewed officials at USAID/Pakistan, in the
offices of accounting firms completing the assessments, in the Government of Pakistan, and at
the implementers’ main country offices to gain an understanding of (1) how preaward
assessments are initiated for a potential recipient; (2) how the accounting firm is selected for
conducting preaward assessments; (3) how the quality of work of the accounting firm is
monitored by the mission; (4) how mission officials decide which of the material


                                                                                                  8
                                                                                      Appendix I


recommendations made in the preaward assessment reports to include in the agreements; and
(5) how the material weaknesses are monitored by the mission.

In addition, we performed the following audit tests:

•   Reviewed the scopes of work for USAID/Pakistan’s preaward assessments of government
    entities and local organizations for compliance with ADS and other relevant guidance.
•   Reviewed the procedures established by USAID/Pakistan to ensure the quality of the
    assessments.
•   Reviewed assessments, the completed work programs used for the assessments, working
    papers, or other evidence supporting the assessment reports.
•   Interviewed staff who performed the assessments.
•   Reviewed the subsequent awards made by USAID/Pakistan to determine whether any
    material weaknesses (referred to as “conditions precedent” by the mission) were identified in
    the assessments and, if so, how the mission monitored progress on correcting the
    weaknesses to ensure they were resolved in a timely manner.
•   Interviewed staff in government institutions and local organizations that had been assessed
    to ascertain their input into the preaward assessment process and their follow-up on
    recommendations included in the preaward assessment reports.

In validating the conditions precedent included in the agreements, we checked material
weaknesses noted in preaward assessment reports against material conditions included in the
agreements. To test how the mission ensured that the conditions precedent were resolved, we
corroborated responses from the recipients and the mission and verified the supporting
evidence available.

We used attribute sampling and selected a random sample of eight preaward assessments and
corresponding awards representing cumulative obligations and disbursements of $307.3 million
and $269.1 million (Appendix IV) from the universe of 28 preaward assessment reports completed.
This sample size provided a 90 percent confidence level that our conclusions are correct.

To categorize the results, we established a materiality threshold of 10 percent. For example, if
the mission did not verify the conditions precedent before disbursement of funds or follow up on
recommendations within the time stipulated in the agreements in 3 awards of the selected
sample of 28, we concluded that significant vulnerabilities identified in the preaward
assessments were not corrected in a timely fashion.




                                                                                               9
                                                                                    Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

Date:            April 14, 2011

To:              Steven H. Bernstein
                 OIG/Pakistan

From:            Andrew Sisson /s/
                 Mission Director

Subject:         Management Comments
                 Audit of USAID/Pakistan’s Management of Pre-award Assessments (Report
                 No. G-391-11-00X-P)

Reference:       Draft report no. G-391-11-00X-P dated March 14, 2011.

In response to the referenced draft audit report, please find below the management comments
on the four recommendations included therein:

Recommendation 1 We recommend that USAID/Pakistan develop and implement a
risk-assessment model to use in determining which of the weaknesses identified in
the pre-award assessments should be addressed before or after the disbursement of
funds.

Management Comments:

Mission management concurs with this recommendation. The following corrective actions
have been started to address the recommendation:

      •   The Mission has developed a Risk Mitigation Framework (RMF), to outline and
          determine actions to be taken based on the conditions/risks identified in the pre-
          award assessment report (Annexure-A).
      •   A template of RMF has been developed and implemented mission wide (Annexure-
          B).
      •   The Mission is in the process of formalizing a standard template of the memo
          requesting approval from the Deputy Mission Director for the implementation of RMF
          actions.




                                                                                               10
                                                                                     Appendix II


Corrective actions on this recommendation have been taken by the Mission. Therefore, we
request the closure of this recommendation upon issuance of the final report, based on the
aforementioned steps taken by the Mission.

Recommendation 2 We recommend that USAID/Pakistan develop and implement a
comprehensive tracking system with benchmarks and time frames for measuring the
progress on resolving weaknesses that are identified in the pre-award assessment
reports.

Management Comments:

Mission management concurs with this recommendation. The Risk Mitigation Framework
(as described in Recommendation 1) has benchmarks and time frames for measuring the
progress on resolving weaknesses that are identified in the pre-award assessment reports.
The technical officer is responsible to keep track of progress on resolving weaknesses
within agreed timeframe.

Corrective actions on this recommendation have been taken by the Mission. Therefore, we
request the closure of this recommendation upon issuance of the final report, based on the
aforementioned steps taken by the Mission.

Recommendation 3 We recommend that USAID/Pakistan develop and implement
written guidelines to follow when determining whether pre-disbursement
recommendations have been adequately addressed.

Management Comments:

Mission management concurs with this recommendation. The Risk Mitigation Framework
(as described in Recommendation 1) provides for the deliverables along with timelines and
indicates the responsible person/office to address the pre-award recommendations that
Mission management considers important. The technical officer does actively follow-up on
the status of open conditions up to their closure and keep the involved offices updated as to
the status and the related action items.

Corrective actions on this recommendation have been taken by the Mission. Therefore, we
request the closure of this recommendation upon issuance of the final report, based on the
aforementioned steps taken by the Mission.

Recommendation 4 We recommend that USAID/Pakistan develop and implement
written procedures for reviewing the pre-award assessment reports, including
guidelines for testing the supporting documentation.

Management Comments:

Mission management concurs with the recommendation. The Office of Financial
Management will develop a plan and procedure for reviewing the pre-award assessment
reports and conducting tests for supporting documentation on random basis, by July 1,
2011.

Attachments: a/s
CC:    ASIA/SCAA:            Andrew Plitt


                                                                                                11
                                                                                    Appendix III



              USAID/Pakistan’s Awards to Governmental and
           Nongovernmental Entities, Fiscal Years 2009 and 2010
                               (Unaudited)

                                                                   Obligations   Disbursements
           Activity                        Recipient
                                                                       ($)             ($)

                               Awards to Governmental Entities
Merit and Needs-Based
                               Higher Education Commission           6,205,605       6,063,717
Scholarship Program
Public Health Training and
                               Health Services Academy               1,550,737         564,027
Research Project

Budgetary Support              Higher Education Commission           5,000,000       5,000,000

Competitiveness Support Fund   Ministry of Finance                  10,311,000       7,861,905

Quick-Impact Projects in the   Federally Administered Tribal
                                                                     8,250,000               0
South Waziristan Agency        Areas Secretariat
Malakand Reconstruction and    Provincial Relief, Rehabilitation
                                                                     4,965,000               0
Recovery Program               and Settlement Authority
Malakand Reconstruction and    Provincial Relief, Rehabilitation
                                                                     8,556,384               0
Recovery Program               and Settlement Authority
Tarbela Dam Repair and
                               Ministry of Water & Power            16,500,000               0
Maintenance
Muzaffargarh Thermal Power
Station Repair and             Ministry of Water & Power            15,193,000               0
Maintenance
Guddu Thermal Power Station
                               Ministry of Water & Power            18,068,000               0
Repair and Maintenance
Housing Cash Transfer          Provincial Relief, Rehabilitation
                                                                    65,000,000      65,000,000
Program                        and Settlement Authority
University and Technical
                               Higher Education Commission          45,000,000      45,000,000
Education
University and Technical
                               Higher Education Commission          45,000,000      45,000,000
Education
Cash Support Program for       Cabinet Division / United Bank
                                                                    44,000,000      44,000,000
Internally Displaced Persons   Limited
Benazir Income Support         Benazir Income Support
                                                                    85,000,000      85,000,000
Program                        Program
Benazir Income Support         Benazir Income Support
                                                                    75,000,000      75,000,000
Program                        Program
Jamshoro Thermal Power         Jamshoro Thermal Power
                                                                    18,360,000               0
Repair and Maintenance         Station
Widening and Improvement of
                               Provincial Relief, Rehabilitation
the Jandola-Kotkai-Sara                                              7,893,369               0
                               and Settlement Authority
Rogha Road




                                                                                             12
                                                                                       Appendix III


                                                                      Obligations   Disbursements
           Activity                           Recipient
                                                                          ($)             ($)
Malakand Reconstruction and       Provincial Relief, Rehabilitation
                                                                        9,646,900               0
Recovery Program                  and Settlement Authority
Malakand Reconstruction and       Provincial Relief, Rehabilitation
                                                                        1,000,000               0
Recovery Program                  and Settlement Authority

Total Awards to Governmental Entities                                 490,499,995     378,489,649

                                Awards to Nongovernmental Entities

Pakistan Children Television      Rafi Peer Theater Workshop           10,000,000           7,848

Establishment of Examination
                                  Aga Khan University                   4,435,250       4,435,250
Board

FATA School Rehabilitation        Associates in Development            10,432,366      10,432,366

Interactive Teaching &
                                  Children's Global Network             4,436,723       4,423,956
Learning

Education for All                 Dosti Welfare Organization              26,781           26,781

College Improvement Grant         Foreman Christian College             5,000,000       5,200,000

Establishing Tent Schools &       Rural Support Programmes
                                                                        2,225,133       2,225,133
Cash-for-Work Program             Network
FATA School Rehabilitation
and Construction Program          Sebcon (Pvt) Ltd                       217,336          217,336
Monitoring
                                  United States Educational
Fulbright Scholarship Program                                            344,766          344,766
                                  Foundation in Pakistan
Construction of Pakistan
                                  Habib Rafiq International Limited     7,800,000         885,110
Parliament Services Building

Anti-Corruption Program           Transparency Intl. Pakistan            250,000          122,259

Pakistan Self-Help Program        Anjum Asim Shahid Associates           199,436          199,436

Rewarding Innovation at the       Rural Support Programmes
                                                                        1,861,855       1,861,855
District Level in Pakistan        Network
Strengthening Transparency        Transparency International-
                                                                          91,500           91,500
International                     Pakistan
Bolton Market Business
                                  Khushhali Bank                       13,000,000       8,195,122
Revitalization Program
Enterprise Development            Pakistan Poverty Alleviation
                                                                        2,532,879       2,532,879
Facility Initiative               Fund
Developing Nonbankable
Territories for Financial         Khushhali Bank                        8,550,000       8,341,736
Services
Improved Pakistani
Reproductive Health and           GreenStar Social Marketing           19,354,292      19,354,292
Family Planning Services




                                                                                                13
                                                                               Appendix III


                                                              Obligations   Disbursements
           Activity                         Recipient
                                                                  ($)             ($)
FATA School Rehabilitation
                                 Associates in Development        52,727           52,727
and Construction Program
Monitoring and Evaluation in
                                 Associates in Development      2,000,000         677,884
South Waziristan
Capacity Building – FATA         Ernst & Young Ford Rhodes
                                                                 817,260                0
Secretariat                      Sidat Hyder & Co.
Capacity Building – Provincial
Relief, Rehabilitation and       KPMG                            816,985          100,606
Settlement Authority
Gender Equity Program            Aurat Foundation               1,266,037               0

Monitoring and Evaluation        Ages Consultants                  25,000               0

Monitoring and Evaluation        Ages Consultants               1,224,351          83,211

                                 Transparency International
Anti-Fraud Hotline                                               500,000                0
                                 Pakistan

Total Awards to Nongovernmental Entities                       97,460,677      69,612,053

Total Awards
                                                              587,960,672     448,101,702




                                                                                        14
                                                                               Appendix IV


  Fiscal Year 2010 Preaward Assessments Selected for Audit
                                                            Amount          Amount
  Date of
                            Program                       Obligated as   Disbursed as
 Preaward    Contractor                    Recipient
                             Name                          of 9/30/10      of 9/30/10
Assessment
                                                          ($ millions)    ($ millions)
                          Benazir         Ministry of
               Grant      Income          Economic
  11/12/09                                                   160.0          160.0
              Thornton    Support         Affairs and
                          Program         Statistics
                                          Ministry of
                          Housing
                                          Economic
  11/25/09    Deloitte    Damage                              65.0           65.0
                                          Affairs and
                          Compensation
                                          Statistics
                          Quick Impact
                          Projects in     FATA
  2/26/10      KPMG                                             8.3           0.0
                          South           Secretariat
                          Waziristan
                          Support for     Ministry of
                          Internally      Economic
  11/16/09     KPMG                                           44.0           44.0
                          Displaced       Affairs and
                          Persons         Statistics
                          Jamshoro
                          Thermal         Ministry of
               Grant
  5/19/10                 Power Station   Water and           18.4            0.0
              Thornton
                          Repair and      Power
                          Maintenance
                          Pakistan        Rafi Peer
              Ernst &
  5/07/10                 Children’s      Theatre             10.0            0.0
              Young
                          Television      Workshop
                          Antifraud       Transparency
  10/21/09    Deloitte    Hotline         International         0.3           0.1
                          Program         Pakistan
                          Gender Equity   Aurat
  8/31/10     Deloitte                                          1.3           0.0
                          Program         Foundation

Total                                                        307.3          269.1




                                                                                         15
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
